                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00026-252


        Community Based Outpatient 

                Clinic Reviews 

                       at 

       Amarillo VA Health Care System 

                 Amarillo, TX 

                      and 

            Northern Arizona VA 

             Health Care System 

                 Prescott, AZ 





July 23, 2013

                      Washington, DC 20420
                      Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with consistent,
safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to equip
VA with ways to provide veterans with medically needed care in a more
equitable and cost-effective manner.          As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout the
United States. CBOCs were established to provide more convenient access to
care for currently enrolled users and to improve access opportunities within
existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

  To Report Suspected Wrongdoing in VA Programs and Operations
                      Telephone: 1-800-488-8244
                      E-Mail: vaoighotline@va.gov
   (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EKG      electrocardiogram
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       HCS      Health Care System
                       LCSW     Licensed Clinical Social Worker
                       MH       mental health
                       MSEC     Medical Staff’s Executive Committee
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       PCP      primary care provider
                       PSB      Professional Standards Board
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                               CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations.................................................. 8

  CBOC Characteristics ............................................................................................. 8

  C&P ........................................................................................................................ 9

  EOC and Emergency Management ........................................................................ 10


Appendixes
  A. VISN 18 Director Comments .............................................................................                     12

  B. Amarillo VA HCS Director Comments ...............................................................                           13

  C. Northern Arizona VA HCS Director Comments .................................................                                 16

  D. OIG Contact and Staff Acknowledgments .........................................................                             20

  E. Report Distribution .............................................................................................           21





VA OIG Office of Healthcare Inspections
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of randomly selected CBOCs at the Amarillo VA
HCS and the Northern Arizona VA HCS during the week of May 20, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

    VISN        Facility                        CBOC Name               Location
                Amarillo VA HCS                 Lubbock                 Lubbock, TX
      18                                        Bellemont               Flagstaff, AZ
                Northern Arizona VA HCS
                                                Kingman                 Kingman, AZ
                                     Table 1. Sites Inspected

Review Results: We made recommendations in three review areas.

Recommendations: The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

Amarillo VA HCS

	 Establish a process to ensure that the ordering provider or surrogate is notified of
   normal cervical cancer screening results within the required timeframe and that
   notification is documented in the EHR.

	 Ensure that patients with normal cervical cancer screening results are notified of
   results within the required timeframe and that notification is documented in the EHR.




VA OIG Office of Healthcare Inspections                                                       i
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


	 Ensure that clinicians document all required tetanus vaccine administration elements
   and that compliance is monitored.

	 Ensure that the MSEC grants privileges consistent with the services provided at the
   Lubbock CBOC.

Northern Arizona VA HCS

	 Ensure that patients with normal cervical cancer screening results are notified of
   results within the required timeframe and that notification is documented in the EHR.

	 Ensure that clinicians screen patients for tetanus vaccinations.

	 Ensure that clinicians administer tetanus vaccines when indicated.

	 Ensure that clinicians administer pneumococcal vaccine when indicated.

	 Ensure that clinicians document all required tetanus vaccine administration elements
   and that compliance is monitored.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A-C,
pages 12–19, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                         JOHN D. DAIGH, JR., M.D.
                                                        Assistant Inspector General for
                                                             Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                       ii
                                         CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                            CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Three CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                              2
                                                                                       CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facilities’ oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                    Uniques,             Visits,
VISN            Parent Facility                     CBOC Name                    Locality6                                                CBOC Size9
                                                                                                    FY 20127            FY 20128
                                                     Childress                     Rural              430                1,424                Small
                                                 (Childress, TX)
                                                       Clovis                      Rural               1,831              11,120            Mid-Size
               Amarillo VA HCS
                                                    (Clovis, NM)
                                                      Lubbock                      Urban               9,869              94,649              Large
                                                  (Lubbock, TX)
                                                      Anthem                       Rural               1,358              4,802               Small
                                                   (Anthem, AZ)
    18                                               Bellemont                     Rural               1,354              3,350               Small
                                                  (Flagstaff, AZ)
         Northern Arizona VA HCS                      Kingman                      Rural               3,682              13,886            Mid-Size
                                                  (Kingman, AZ)
                                                   Lake Havasu                     Rural               3,012              10,920            Mid-Size
                                             (Lake Havasu City, AZ)
                                              Cottonwood (Yavapai                  Rural               2,175              8,829             Mid-Size
                                                      County)
                                                (Cottonwood, AZ)
                                                                Table 2. CBOC Profiles



5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  Ibid. 

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                         CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review elements marked as NC needed improvement.
Details regarding the findings follow the table.

           NC                                        Areas Reviewed
                             Cervical cancer screening results were entered into the patient’s
                             EHR.
     Amarillo VA HCS         The ordering VHA provider or surrogate was notified of results
                             within the required timeframe.
     Amarillo VA HCS         Patients were notified of results within the required timeframe.
     Northern Arizona
         VA HCS
                             Each CBOC has an appointed WH Liaison.
                             There is evidence that the CBOC has processes in place to
                             ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 22 patients who received a cervical cancer screening at the Amarillo VA
HCS or its associated CBOCs and 28 patients at Northern Arizona VA HCS’s CBOCs.

Amarillo VA HCS

Provider Notification. VHA requires that normal cervical cancer screening results must
be reported to the ordering provider or surrogate within 30 calendar days of the
pathology report being issued and the notification is documented in the EHR.13 We
reviewed the EHRs of 21 patients who had normal cervical cancer screening results and

10
    World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

13
   Ibid. 



VA OIG Office of Healthcare Inspections                                                                         4
                                        CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


did not find documentation in 7 records that the ordering provider or surrogate was
notified within 30 calendar days.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available.14 We reviewed 21 EHRs of patients who had normal cervical
cancer screening results and determined that 7 patients were not notified within the
required 14 days from the date the pathology report became available.

Recommendations

1. We recommended that a process be established to ensure that the ordering provider
or surrogate is notified of normal cervical cancer screening results within the required
timeframe and that notification is documented in the EHR.

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Northern Arizona VA HCS

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available.15 We reviewed 28 EHRs of patients who had normal cervical
cancer screening results and determined that 10 patients were not notified within the
required 14 days from the date the pathology report became available.

Recommendation

3. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.16
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.


14
   VHA Handbook 1330.01. 

15
   Ibid. 

16
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                      5
                                          CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccine, one-time revaccination
is recommended if they were vaccinated 5 or more years previously and were less than
65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

           NC                                          Areas Reviewed
     Northern Arizona          Staff screened patients for the tetanus vaccination.
         VA HCS
     Northern Arizona          Staff administered the tetanus vaccine when indicated.
         VA HCS
                               Staff screened patients for the pneumococcal vaccination.
     Northern Arizona          Staff administered the pneumococcal vaccine when indicated.
         VA HCS
     Amarillo VA HCS           Staff properly documented vaccine administration.
     Northern Arizona
         VA HCS
                               Managers developed a prioritization plan for the potential
                               occurrence of vaccine shortages.
                                             Table 4. Vaccinations

Amarillo VA HCS

Documentation of Tetanus Vaccination. Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
lot number of the vaccine used.17 We reviewed the EHRs of nine patients who received
a tetanus vaccination at the parent facility or its associated CBOCs. We did not find
documentation of all the required information related to tetanus vaccine administration
in three of the EHRs.

Recommendation

4. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.

Northern Arizona VA HCS

Tetanus Vaccination Screening. Through clinical reminders, VHA requires that CBOC
clinicians screen patients for tetanus vaccinations.18 We reviewed 75 patients’ EHRs
and did not find documentation of tetanus vaccination screening in 23 of the EHRs.


17
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.
18
     VHA Handbook 1120.05.


VA OIG Office of Healthcare Inspections                                                            6
                                         CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


Tetanus Vaccine Administration. The CDC recommends that, when indicated, clinicians
administer the tetanus vaccine.19 We reviewed the EHRs of 52 patients and did not find
documentation in 11 of the EHRs that the tetanus vaccine had been administered.

Pneumococcal Vaccine Administration for Patients with Pre-Existing Conditions. The
CDC recommends that at the age of 65, individuals who have never had a
pneumococcal vaccine should receive one.20 For individuals 65 and older who have
received a prior pneumococcal vaccine, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of two patients with pre-existing
conditions who received their first vaccine prior to the age of 65. We did not find
documentation in either of the EHRs indicating that their second vaccines had been
administered.

Documentation of Tetanus Vaccination. Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
lot number of the vaccine used.21 We reviewed the EHRs of four patients who received
the tetanus vaccine at the parent facility or its associated CBOCs. We did not find
documentation of all the required information related to tetanus vaccine administration
in any of the EHRs.

Recommendations

5. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

6. We recommended that managers ensure that clinicians administer tetanus vaccines
when indicated.

7. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

8. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.




19
   Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/. 

20
   Ibid. 

21
   Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.



VA OIG Office of Healthcare Inspections                                                           7
                                                  CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


                                   Onsite Reviews 

                           Results and Recommendations 

  CBOC Characteristics
  We formulated a list of CBOC characteristics that includes identifiers and descriptive
  information for the randomly selected CBOCs (see Table 5).

                                    Lubbock                    Bellemont                Kingman

    VISN                                  18                       18                       18
                                                            Northern Arizona         Northern Arizona
    Parent Facility              Amarillo VA HCS
                                                                VA HCS                   VA HCS
                                      LCSW                       LCSW                     LCSW
                                Nurse Practitioner         Physician Assistant             PCP
    Types of Providers          Physician Assistant               PCP                 Psychologist
                                       PCP
                                   Psychiatrist
                                   Psychologist
    Number of MH Uniques,
                                      1,853                       252                      470
    FY 2012
    Number of MH Visits,
                                      13,675                     1,008                    4,068
    FY 2012
    MH Services Onsite                Yes                        Yes                       Yes
                                     Dental                    Audiology                   WH
                                  Dermatology                    WH
    Specialty Care Services        Optometry
    Onsite                          Podiatry
                                     Urology
                                       WH
                                      EKG                        EKG                      EKG
    Ancillary Services             Laboratory                  Laboratory               Laboratory
    Provided Onsite                Pharmacy
                                Physical Medicine
                                   Radiology
                                       MH                       Cardiology              Cardiology
                                 Retinal Imaging               Dermatology                  MH
                                                                    MH                Retinal Imaging
    Tele-Health Services                                        Oncology
                                                               Pulmonology
                                                             Retinal Imaging
                                                         Care Coordination Home
                                                                Telehealth
                                               Table 5. Characteristics




VA OIG Office of Healthcare Inspections                                                                    8
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.22 Table 6 shows the areas reviewed for this topic. The CBOC identified as
NC needed improvement. Details regarding the finding follow the table.

             NC                                        Areas Reviewed
                             Each provider’s license was unrestricted.
                                            New Provider
                             Efforts were made to obtain verification of clinical privileges
                             currently or most recently held at other institutions.
                             FPPE was initiated.
                             Timeframe for the FPPE was clearly documented.
                             The FPPE outlined the criteria monitored.
                             The FPPE was implemented on first clinical start day.
                             The FPPE results were reported to the MSEC.
                                         Additional New Privilege
                             Prior to the start of a new privilege, criteria for the FPPE were
                             developed.
                             There was evidence that the provider was educated about
                             FPPE prior to its initiation.
                             FPPE results were reported to the MSEC.
                                          FPPE for Performance
                             The FPPE included criteria developed for evaluation of the
                             practitioners when issues affecting the provision of safe,
                             high-quality care were identified.
                             A timeframe for the FPPE was clearly documented.
                             There was evidence that the provider was educated about
                             FPPE prior to its initiation.
                             FPPE results were reported to the MSEC.
                                Privileges and Scopes of Practice
                             The Service Chief, Credentialing Board, and/or MSEC list
                             documents reviewed and the rationale for conclusions reached
                             for granting licensed independent practitioner privileges.
                             Privileges granted to providers were setting, service, and
          Lubbock
                             provider specific.
                             The determination to continue current privileges was based in
                             part on results of Ongoing Professional Practice Evaluation
                             activities.
                                           Table 6. C&P




22
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                       9
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


Amarillo VA HCS – Lubbock

Clinical Privileges. VHA policy requires that privileges granted to an applicant must be
setting specific and based on the procedures and types of services that are provided
within that setting.23 We found that the MSEC granted clinical privileges for procedures
that were not performed at the Lubbock CBOC. For example, we found that two of
three providers were granted privileges that included admitting and inpatient privileges.

Recommendation

9. We recommended that the PSB grants privileges consistent with the services
provided at the Lubbock CBOC.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic.

             NC                                      Areas Reviewed
                             The CBOC was Americans with Disabilities Act-compliant,
                             including: parking, ramps, door widths, door hardware,
                             restrooms, and counters.
                             The CBOC was well maintained (e.g., ceiling tiles clean and in
                             good repair, walls without holes, etc.).
                             The CBOC was clean (walls, floors, and equipment are clean).
                             Material safety data sheets were readily available to staff.
                             The patient care area was safe.
                             Access to fire alarms and fire extinguishers was unobstructed.
                             Fire extinguishers were visually inspected monthly.
                             Exit signs were visible from any direction.
                             There was evidence of fire drills occurring at least annually.
                             Fire extinguishers were easily identifiable.
                             There was evidence of an annual fire and safety inspection.
                             There was an alarm system or panic button installed in high-risk
                             areas as identified by the vulnerability risk assessment.
                             The CBOC had a process to identify expired medications.
                             Medications were secured from unauthorized access.
                             Privacy was maintained.
                             Patients’ personally identifiable information was secured and
                             protected.



23
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                      10
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


             NC                               Areas Reviewed (continued)
                            Laboratory specimens were transported securely to prevent
                            unauthorized access.
                            Staff used two patient identifiers for blood drawing procedures.
                            Adherence to information technology security rules.
                            There was alcohol hand wash or a soap dispenser and sink
                            available in each examination room.
                            Sharps containers were less than 3/4 full.
                            Safety needle devices were available for staff use (e.g., lancets,
                            injection needles, phlebotomy needles).
                            The CBOC was included in facility-wide EOC activities.
                                           Table 7. EOC

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.24 Table 8 shows the areas
reviewed for this topic.

             NC                                      Areas Reviewed
                            There was a local medical emergency management plan for this
                            CBOC.
                            The staff articulated the procedural steps of the medical
                            emergency plan.
                            The CBOC had an automated external defibrillator onsite for
                            cardiac emergencies.
                            There was a local MH emergency management plan for this
                            CBOC.
                            The staff articulated the procedural steps of the MH emergency
                            plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




24
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                      11
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS
                                                                                      Appendix A

                           VISN 18 Director Comments


               Department of
               Veterans Affairs 	                                Memorandum


       Date: 	         July 9, 2013

       From: 	         Network Director, VISN 18 (10N18)

       Subject: 	 CBOC Reviews at Amarillo VA HCS and Northern
                  Arizona VA HCS

       To: 	           Director, 54SD Healthcare Inspections Division (54SD)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       I concur with the recommendations for improvement contained in the Draft
       CBOC Reviews at Amarillo VAHCS and Northern Arizona VAHCS. If you
       have any questions or concerns, please contact Sally Compton, Executive
       Assistant to the Network Director, VISN 18, at 602-222-2699.




VA OIG Office of Healthcare Inspections                                                      12
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS
                                                                                      Appendix B

                    Amarillo VA HCS Director Comments



               Department of
               Veterans Affairs                                  Memorandum


       Date:           July 3, 2013

       From:           Director, Amarillo VA HCS (504/00)

       Subject:        CBOC Reviews at Amarillo VA HCS

       To:             Director, VISN 18 (10N18)

       Thank you for the opportunity to review the draft report of
       recommendations from the OIG CBOC review conducted at the Lubbock
       CBOC. We have reviewed the report from the site visit and concur with
       the recommendations; corrective action plans with target dates for
       completion are attached.




VA OIG Office of Healthcare Inspections                                                      13
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


                               Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal cervical cancer screening results within the required
timeframe and that notification is documented in the EHR.

Concur

Target date for completion: Completed, July 5, 2013

To ensure that the ordering provider or surrogate is notified of normal cervical cancer
screening results within the required timeframe and that notification is documented in
the EHR, the Women Veterans Program Manager (WVPM) established an alert
monitoring process in October 2012 to track normal cervical cancer screening
notifications. In June 2013, the process was improved to ensure that review results
were tracked, trended and reported monthly to the leadership and clinical service chiefs
through the Performance Improvement Committee (PIC). Monthly screening notification
review results were added to the PIC Dashboard and are presented at the Executive
Leadership Board monthly. The WVPM is responsible for contacting any Providers with
changing trends. An audit of 26 patient records for January-April 2013 revealed 100%
timely notification and documentation. In addition, an automated CPRS view alert was
added to the ordering provider alert menu to ensure that patient notification results are
documented within CPRS.

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: Completed, July 5, 2013

In order to ensure that patients with normal cervical cancer screening results are
notified of results within the required timeframe and that notification is documented in
the Electronic Health Record (EHR), view alerts are monitored by the Women Veterans
Program Manager (WVPM) to ensure timely provider follow-up and patient notification.
When providers are alerted via an EHR alert in CPRS that the cytopathology results are
available, the patient notification results are documented using one of two methods:

  a. A note is entered into CPRS after phone notification by the provider or surrogate to
the patient.




VA OIG Office of Healthcare Inspections                                                      14
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


  b. A patient results letter is sent to the patient and scanned into VISTA Imaging or a
note is entered in CPRS with the patient results and letter information.

A Medical Center Memorandum was developed and signed in February 2013 outlining
cervical cancer screening and procedures in accordance with the VHA Handbook
1330.02. Monthly review results are monitored through the Performance Improvement
Committee Dashboard and reported to the Performance Improvement Committee and
Executive Leadership Board.

4. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: Completed, May 22, 2013

As of May 22, 2013, an expiration date was added to the Tetanus Vaccine Clinical
Reminder template and required documentation elements were edited to mandatory
fields. The Clinical Application Coordinator developed a report template which is
tracked, trended and reported monthly to the Performance Improvement Committee
with a target of 85% compliance.

9. We recommended that the MSEC grants privileges consistent with the services
provided at the Lubbock CBOC.

Concur

Target date for completion: Completed; May 28, 2013

The Medical Staff Office has reviewed and revised all privileges to ensure the requested
privileges are consistent with the services provided at the Lubbock CBOC. The form
used to document Physician Primary Care Core Privileges was updated to include the
ability to select site-specific privileges consistent with services provided. The revised
form was approved at the Medical Executive Committee on May 28, 2013 and is
currently in use. Monitoring of site-specific privileges will be reported monthly during
Medical Executive Committee meetings.

 .




VA OIG Office of Healthcare Inspections                                                      15
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS
                                                                                      Appendix C

             Northern Arizona VA HCS Director Comments


               Department of
               Veterans Affairs                                  Memorandum


       Date:           July 2, 2013

       From:           Director, Northern Arizona VA HCS (649/00)

       Subject:        CBOC Reviews at Northern Arizona VA HCS

       To:             Director, VISN 18 (10N18)

       I have reviewed and concur with the findings and recommendations by the
       Office of the Inspector General in their review of the Community Based
       Outpatient Clinics at Kingman and Flagstaff, Arizona.

       Corrective action plans have been established with target completion
       dates, as detailed in the attached report.




                                                 




VA OIG Office of Healthcare Inspections                                                      16
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


                               Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

3. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: August 1, 2013

In order to ensure that patients with normal cervical cancer screenings receive
notification of test results within the required timeframe and that the notification is
documented in the EHR, the Primary Care Service Line Manager will educate and
counsel key staff on guidelines within VHA Directive 2009-019 “Ordering and Reporting
of Test Results” and NAVAHCS HCSM 11-COS-51 “Communication of Patient Results.”
This education will focus on normal cervical cancer screening result notification and
documentation in the EHR. Compliance with documenting notification of normal
cervical cancer screening results will be monitored via chart audits completed by the
Women’s Health Coordinator with quarterly results reported to the Medical Records
Committee of which the Quality Programs Board has oversight. To ensure there is
sustainable change, once a benchmark of 90% is achieved quarterly audits will continue
for an additional two quarters.

5. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

Concur

Target date for completion: August 1, 2013

In order to ensure that clinicians screen patients for tetanus vaccination, a clinical
reminder has been implemented. In collaboration with the Clinical Application
Coordinator, this clinical reminder was initiated by the CBOC Manager in January, 2013
at which time CBOC staff received education on this new clinical reminder and the VHA
guidelines for tetanus vaccination. Compliance with screening patients for tetanus
vaccination will be monitored via chart audits completed by the CBOC Manager with
results reported quarterly to the Medical Records Committee of which the Quality
Programs Board has oversight. To ensure there is sustainable change, once a
benchmark of 90% is achieved quarterly audits will continue for an additional two
quarters.




VA OIG Office of Healthcare Inspections                                                      17
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


6. We recommended that managers ensure that clinicians administer tetanus vaccines
when indicated.

Concur

Target date for completion: August 1, 2013

In order to ensure that clinicians administer tetanus vaccines when indicated, a clinical
reminder has been implemented. In collaboration with the Clinical Application
Coordinator, this clinical reminder was initiated by the CBOC Manager in January, 2013.
At this time, the CBOC staff received education on this new clinical reminder and the
VHA guidelines for tetanus vaccination. Compliance with administration of the tetanus
vaccine will be monitored via chart audits completed by the CBOC manager with results
reported quarterly to the Medical Records Committee of which the Quality Programs
Board has oversight. To ensure there is sustainable change, once a benchmark of 90%
is achieved quarterly audits will continue for an additional two quarters.

7. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

Concur

Target date for completion: August 1, 2013

To ensure that clinicians administer pneumococcal vaccines when indicated, the clinical
reminder for pneumococcal vaccine will be updated by Clinical Application Coordinator
to meet pneumococcal guidelines for all adults over the age of 65; including a trigger for
those who have previously been vaccinated. Compliance with administration of the
vaccine will be monitored via chart audits completed by the CBOC Manager with results
reported quarterly to the Medical Records Committee of which the Quality Programs
Board has oversight. To ensure there is sustainable change, once a benchmark of 90%
is achieved quarterly audits will continue for an additional two quarters.

8. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: August 1, 2013

In order to ensure that clinicians document all required tetanus vaccine administration
elements, a clinical reminder containing all required elements for documentation was
implemented. The clinical reminder contains all required tetanus vaccine administration
elements and will be updated quarterly by the Clinical Application Coordinator to ensure
correct data is documented. This clinical reminder was initiated by the CBOC Manager
in January, 2013 at which time staff received education on this new clinical reminder.
Use of the clinical reminder will be monitored via chart audits completed by the CBOC
manager with results reported quarterly to the Medical Records Committee of which the


VA OIG Office of Healthcare Inspections                                                      18
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS


Quality Programs Board has oversight. To ensure there is sustainable change, once a
benchmark of 90% is achieved quarterly audits will continue for an additional two
quarters.




VA OIG Office of Healthcare Inspections                                                      19
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS
                                                                                      Appendix D


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite	                 Josephine Biley Andrion, RN, MHA, Team Leader
Contributors 	          Elizabeth Burns, MSSW, Team Leader
                        Sandra Khan, RN, BSN
                        Jennifer Reed, RN, MSHI
                        Katrina Young, RN, MSHL
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH, MBA
                        Deborah Howard, RN, MSN
                        Derrick Hudson, Program Support Assistant
                        Glen Pickens, RN, MHSM
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      20
                                     CBOC Reviews at Amarillo VA HCS and Northern Arizona VA HCS
                                                                                      Appendix E


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, Amarillo VA HCS (504/00)
Director, Northern Arizona VA HCS (649/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz, Jeff Flake, Martin Heinrich, John McCain,
 Tom Udall
U.S. House of Representatives: Trent Franks, Paul Gosar, Ann Kirkpatrick, Ben Lujan,
 Randy Neugebauer, Mac Thornberry


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      21
